"'        . ..   ".   ..
                      . "

                            ::-'7'''.




     Departent of Health and Human Servces
              FFICE OF
        INSPECTOR GENERA




             YOUTH AND ALCOHOL:
              A NATIONAL SURVEY
      DO THEY KNOW WHAT THEY' RE DRINKING?




                                        Richard P. Kusserow
                                        INSPECfOR GENERA

                                              JU 1991 .
       ",




Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL




      YOUTH AND ALCOHOL:
            A NATIONAL SURVEY
 DO THEY KNOW WHAT THEY' RE DRINKING?




             V1C1.


                     Richard P. Kusserow
                     INSPECfOR GENERAL

             daa         OEI-09-91- 0053
                                                       .' .




                       OFFCE OF INSPECfOR                     GEN
The mision of tbe Offce of Inpeor General (OIG), as mandated by Public Law 95-452, as
amended, is to prote tbe integrty of the Departent of Healtb and Human Servce ' (HS)
progrms as well as tbe bealtb and welfre of beneficiaries selVed by,thos progrms. Th statutory
miion is carred out thugb a nationwide netwrk of audilS, investigations, and inpeons
conducted by thee OJG operatig componenlS: tbe Offce of Audit Servce, tbe Offce of
Investigations , and the Offce of Evaluation and Inpeons. The OIG also inorm the Seetary          of
HHS of progrm and management problems and remmends cour              to correc   them.


                           OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servce (OAS) prodes aU auditing servce for HHS, either by

conducting audilS witb ilS own auditreur      or by oversing audit work done by otbers. AudilS

exmie the performance of HH progrms ancl/or ilS grntee and contractors in carrg out tbeir€
repe      responsibilties and are intended to prode independent asmenlS of HH progrms and -

operations in order to reuce wate, abus and mismanagement and to promote ecnomy and
effciency thrughout tbe Depanment.

                           OFFCE OF INTIGATIONS
The OIG's Offce of Invetigations (01) conduct crminal, civil , and administrative investigations of
allegations of wrongdoing in HHS progrms or to HHS beneficiaries and of unjust enrchment by
providers. The investigative effons of 01 lead to crminal convictions, administrativ sanctions, or
ci money penalties. The OJ als overs State Medicaid frud control unilS whicb investigate and
proste frud and patient abus in tbe Medicaid progrm.
                OFFCE OF EVALUATION AN INSPECTONS
The OIG' s Offce of Evaluation and Inpecions (OEI) conduct sbon-term management and progrm
evluations (called inpections) tbat foc on isues of concern to tbe Depanment, tbe Congres, and
the public. The fidings and recmmendations contained in these inspeion      repons generate rapid,
accrate, and up-to-te inormtion on the effciency, vulnerabilty, and effectivenes of depanmental
progrms.
This repon wa prepared under the direcion of Kaye D. Kidwell, Regional Inspeor General, and
Paul A. Gottlober, Deputy Regional Inspecor General, Offce of Evaluation and Inspecions, Region
IX Panicipating in tbis project were:
Sa Fraci                                        New York                         Chcago
Brad Rolln, Led Analyst
                        Jack Molnar                      Thomas Komaniecki
Elizbeth Bell                                   1lm Nee                          Pamela May
Kathy Dette                                     Trce Rennie                      Ann O'Connor

Deborab HalVey
Jennifer Mallen                                 Phiadelphia                      Dalas
Brian Pattisn                                   Donna Milan
                     Michelle Adams
Elaine Sbelub                                   Nancy Molyneaux                  Pamela Smith


Headquarers .                                                                    Atlanta
Wm. Mark Krhat , Mathematical Statistician                                       Josiab Towel
Barbara Tedesco, Mathematical Statistician
Maruta Zitans, Program Spealit
                  EXECUTIVE SUMMAR Y

 PUROSE
Ths inspection surveyed junior and .senior high school (7th through 12th grade)
students to determine their knowledge about alcoholic and non-alcoholic beverages.

 BACKGROUN

In   TR'-   pDns .t   &..lth &amrn and the adverse.hal cDnsequerues of
                      pll

 alcohol abuse, Surgeon General Antonia Novello requested that the Offce of
 Inspector General (OIG) survey youth to determe their views and practices
 regarding alcohol use. These concerns mirror one of Department of Health and
 Human Servces              (lS)
                         Secretary Louis Sullvan s goals which is to reduce the
 prevalence of alcohol problems among children and youth. The Surgeon General is
 particularly concerned about the similarities in the packaging of aTcoholic and non-
 alcoholic beverages and young peoples ' inabilty to distinguish between them.

 Wine coolers (1.5 to 6. 0 percent alcohol by volume), mixed drink coolers (4. 0 percent
 alcohol), and malt beverage coolers (4. 0 to 4. 8 percent alcohol) offer consumers
 alcoholic beverages in a wide range of frity flavors , vibrant colors, and attractive
 packaging. While not new to the 1980s , fruit- flavored fortifed wines became more
 mainstream with the controversial marketing of Cisco (20. 0 percent alcohol), which is
 packaged similai"y to wie coolers. The Surgeon General has expressed an ongoing
 concern about Cisco because of its high alcohol content and potential for abuse.
 While containing no alcohol, mineral waters with frit juice or flavor offer a variety
 of frit flavors      packaged attractively in bottles that are similar to the ones used for
 alcoholic coolers and Cisco.


 We conducted structured intervews with a random national sample of 956 junior and
 senior high school students. This is one of several reports prepared by the OIG
 concerning youth and alcohol.

 FIINGS
 Tho oUl of thee stunt cannt ditiguh akoJwli beverges                 frm non-alcoJwli
 beverages



 alcoholic.
 Students confuse alcoholic coolers with mineral waters that appear similar in color,
 labeling, and packaging. Also , some alcoholic coolers are not clearly labeled as
In mot StIte bee an oth       malt beverge label do not dicloe      alohol conJ


are consuming.
Although the alcohol content of beer and other malt beverages vary by State and
brand, consumers cannot tell by looking at the can or bottle how much alcohol they


Th   alohol conJ of beverges is a myste to
Less than one in six students identified the beverage containing the most aJcohol
when shown a panel of beverages. Students were most liely to select beer and malt
liquor as having the most alcohol, although Cisco contains two to five times more
alcohol than either. Even afer being allowed to read the labels on all cas and
bottles , less than half correctly identified the beverage containing the most alcohol.
Th is due to (1) the students ' inabilty to understand the labels and (2) the labels
lack of clarity.

More thn a    th   of al   st     do not knw, tht    Cico con/in akohol




popularity.
Although Cisco is not available in all areas, students have found ways to obtain it.
Students related stories about Cisco which emphasize not only its danger , but also its


RECOMMATIONS
Th Sureon Genl shoul work wi beverge              intr,
                                                 Stile and Fedl offcils                   to
imprve th labelig and packagig of akoholi an non-akoholi beverages
A coordinated effort should ensure that (1) total alcohol content of all beverages-­
including beer and malt liquor- is clearly displayed and understandable and
(2) alcoholic and non-alcoholic beverages are clearly distinguishable. This could be
accomplished through voluntary industry standards , State legislation , or Federal
legislation.

     Sureon    Ge     shoul cons      wi puli and  priate agen to deelop,

                                                                    stu
Th


imve, and                    pro

               promote edatinal
akoholi" beverges an th efects

                                             whih woul inease       awaren of

In addition to consulting with other HHS components, the Surgeon General should
work with the U.S. Departments of Education, Transportation, and Justice, the
alcoholic beverage industry, and public interest groups to implement this
recommendation. The educational programs should include (1) teaching students
about the total alcohol content of different beverages and (2) eliminating myths
about wine coolers and beer.
                                 ........................................
                                                                  . . . . . ..
                             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                     TABLE OF CONTENTS

EXCU SUMY

INODUCTON . . .                                                                                      . . . . . . . . 1



FIINGS
Two out of three students cannot distinguish               aJsoholic

beverages from non-alcoholic beverages. .               . . . . . . . . . . . . . .. . . . . . . . . . . . . . . 5

In most States , beer and other malt beverage labels

do not disclose alcohol content. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            . . 9




The alcohol content of beverages is a mystery to students. . . . . . . . . . . . . . . . . . 9

More than a third of all students do not know that
Cisco contains alcohol


RECO:MATIONS

APPENIX: Methodology and Beverage Selection
                            INTRODUCTION€
PUROSE
This inspection surveyed junior and senior high school (7th through 12th grade)
students to detennine their knowledge about alcoholic and non-alcoholic beverages.

BACKGROUN
In response to public health concerns and the adverse health           consequences of
alcohol abuse ,   Surgeon General Antonia Novello requested that the Offce
Inspector General (OrG) surey youth to determe their views and practices
regarding alcohol use. These concerns mirror one of Department of Health and
Human Servces (HHS) Secretary Louis Sullvan s goals which is to reduce the
prevalence of alcohol problems among children and youth. The Surgeon General is
particularly concerned about the simlarities in the packaging of alcoholic and non-
alcoholic beverages and young peoples ' inabilty to distinguish between them. This is
one of several report prepared by the OrG relating to youth and alcohol.

Th
     populri of fr-flored         aloholi beverges skykete            in th 1980s
During the 1980s ,  alcoholic beverage companies introduced a variety of new products
to the market. They offered consumers alcoholic beverages in a wide range of frity
flavors, vibrant colors , and attractive packaging. Introduced in 1981 , wie colers
(1.5 to 6. 0 percent alcohol by volume) are a mixre of wine and frit juice or other
flavoring, sometimes carbonated. Wine coolers offer consumers a sweet, fruity
beverage with little or no alcohol taste. They are available in 12-ounce, screw- top
bottles which are sold individually or in 4-packs. The most popular brands are
Bartles & Jaymes and Seagram

The wie cooler market's explosive growth during its first 6 years prompted the
liquor and beer industries to introduce mied         dr   colers (4. 0 percent alcohol) and
frit-flavored malt beerage colers (4. 0 to 4.       8 percent alcohol)l marketed in single-
serve bottles. Bacardi Breezer, which looks and tastes much like a wine cooler, is an
example of a mixed drink cooler. White Mountain Cooler is a malt beverage cooler
available in flavors such as " Wild Raspberr, Original Citrs " and " Cranberr
Splash.

While not new to the 19805      , frt-flavored forted      wies became more mainstream
with the controversial marketing of Cisco (20. 0 percent alcohol). Fortified wines-­



     lAicohol
             content of malted beerages is commonly measured in alcohol weight , ralber than
alcohol volume. The malted beverage colers we obselVed contain 3. 2 10 4.D percent alcohol by .
weight.
such as Thunderbird and Night Train--contain more alcohol than regular wines and
historically have been considered ' 'wno '' beverages because they are inexpensive and
available mainly in inner cities. Cisco offers consumers 20 percent alcohol fortified
wine- 4 to 5 times more than regular wine coolers--in popular wine cooler flavors
such as peach, berr, and orange, marketed in bottles designed similarly to wine
coolers. Cisco has become more widely available and popular than other fortified
wines and now can be found displayed next to wie coolers not only in cities, but
also in suburbs and smaller towns throughout the United States.

The Suigeon General has expressed an ongoin.g concern about Cisco because of its
high alcohol content and potential for abuse. Cisco looks similar to wine coolers and
has been implicated in a number of alcohol-related deaths and cries ,   especially
among youth. As a result, Dr. Novello has worked with the Federal Trade
Commission to require Cisco to change its labelig and bottle shape, so it does not
resemble a wine cooler.

While containing no alcohol , miera water with frt juice or flavor also became
popular during the 1980s. These beverages offer a variety of frit flavors in bottles
that are very similar to the ones used for alcoholic coolers and Cisco. Brands
include Sundance Sparkler and Mistic. While these alcoholic and non-alcoholic
beverages offer a similar sweet, frity flavor and are packaged and sold in
attractively designed four-packs or single 12-ounce bottles, they are in fact very
different. Mineral waters offer substitutes for soda pop. The coolers offer similar
flavors with 4 to 6 percent alcohol. Cisco offers the same flavors with 20 percent
alcohol.

MEODOLOY
We randomly selected 8 States , 2 counties per State, 2 schools per county, and
30 students per school. The States were: California, Colorado, Florida , Ilinois
Louisiana, New York, Ohio , and Pennsylvania. We completed structured intervews
with a total of 956 junior and senior high school students.


We purchased alcoholic and non-alcoholic beverages from stores close to each
school. During the intervews, we displayed a panel of these beverages and asked
each student (1) whether each beverage did or did not contain alcohol , (2) which
contained the most alcohol simply by looking at the bottles, and (3) which contained
the most alcohol after reading the labels. We included Cisco in all intervews
regardless of whether it was available in that area.

The appendix contains a more detailed description of our metliodology and beverage
selection.
                                                                "",   ,;




                                                                           Stuents were
                                                                           tesed on their
                                                                           knwledge of
                                                                           dozens of
                                                                           siilar­
                                                                           loqldg
                                                                           beverages.




                                                                  w&i
Inrerviewers displayed bOl/les and cans and obsered stents exmining the beverages.
CA   YOU TELL   TI DIFFERENCE?




                        Pitured above are eight
                        beverage representig si€
                       dierenr tyes of dr, wi
                       alcohol content rangig from
                       o to 20 percen wi cooler
                       a lit win cooler a mixed
                       dr cooler, a malre beverage€
                       coole a fortfi   win an a€
                       minal water wi juice.       The
                       shope of th botte, color of the
                       beverage, and label deign are
                       siilr.




                       Mis Black Che, a mineral
                       WQte wiJ juice, is ver
                       to th Bales €
                                                siil
                                       Jayes Ligh€
                       Be wie cooler in color
                       lael des
                 FINDINGS€
TWO OUT OF TIE STEN CANOT DISTGUISH ALHOLIC
BEVERAGES FROM NON-ALHOLIC BEVERAGES

Students confused alcoholic coolers with mineral waters that are similar in color
labeling, and packaging.             Also,   some alcoholic coolers are not clearly labeled as .
alcoholic. Students were most often confused by coolers that do not state clearly on
the front of their labels what kind of beverages they are. An example is Bacardi
  reezer (page 7).

Students correctly identifed alcoholic beverages more often when shown clearly
marked , popular, and well-advertised name- brand alcoholic beverages, especially
beers and Bartles & Jaymes wie coolers. More than 60 percent of the students did
not distinguish between alcoholic and non-alcoholic beer-such as Sharp s and
  Doul' s. Although non-alcoholic beer contains less than 0. 5 percent alcohol , some
students assumed these products contained the same amount of alcohol as regular
beer, because the popular Miler and Anheuser-Busch ' slogans appear directly under
the product name.

Younger students were more likely to mistake an alcoholic beverage for a non-
alcoholic one. Seventy-three percent of students ages 15 and younger erred or did
not know that at least one of the alcoholic beverages contained alcohol. Sixty
percent of those 16 and older made the same mistake.



                PERCE ANSWEG INCORRCI Y OR "DN' KNOW'
                 TO TI QUF0N, "DES TI CONTAI ALHOL?"

      Tropical Passion,       Pik Passion, Pule Passion (wine cooler or liquor)    61.3%€
      Cisco (fortfied wine)                                                       36.€
     Bacard Breezer (mied drk cooler)                                             25.5€
      White Mountain (malted beverage cooler)                                      18.€
      Bartles        Jaymes (wine cooler)

      Schlitz (malt liquor)

      Michelob (beer)€
      Miller, Miler Genuine Draft (beer)€
      Budweiser (beer)
      Colt      45   (malt liquor)
Students sometimes believed that mineral waters with juice contained alcohol.
Several brands of mieral water now use foil labels to cover the cap. This gives
them a,n appearance similar to some alcoholic beverages. Thirt-four percent of all
students failed to identif mineral waters as non-alcoholic.

The similar appearance of alcoholic coolers and mineral waters has been used by
students to fool retail clerks into sellng them alcoholic beverages , according to one
junior high school teacher. In one area, students place wine coolers into mineral
water four-pack containers. Because of their similar appearance, the ckrks fail to
notice that the beverages have been switched.

On average , students were unable to distinguish between alcoholic and non-alcoholic
beverages 3 out of 10 times.
                                                            ..




                 SNASHOT         SUMY   BACAI BREEZER

                                                                  The only
                                                                 obvi
                                                                 mentin of
                                                                 Bacardi
                                                                 Brezer
                                                                 coniaming
                                                                 flohol    is   the
                                                                 smal cursive
                                                                  Bacardi Rum
                                                                 Refesher
                                                                 prted nat to
                                                                 the rile. The

                                                                 beige alcohol
                                                                 contenr is
                                                                 almosr
                                                                 inviible
                                                                 compared to
                                                                 the rest of rhe

                                                                 label


                                             Th ingredient litig is also
                                             difcult to read when   compared
                                             to the resr of the label




. Although Bacardi is a popular

  bran of rum,  25 percent of
  the stents did not know
  thai Bacardi Breezer conrow
  alcohoL The product name
  and the frit collage are

 emphasied on the front label.
  ,,,                                                                 ,.: '




 SNAPSHOT            SUMY: STUENT      WERE          FOOLE         BY "PASSION'

                                More thn        61
                                                     pecent of all students did not
                                know that Pik Passion, Tropical Passion , and
                                Purple Passin contain alcohoL Consmers can
                                tell   thr    Passion beverages contain alcohol by
                                th ingredients, but the front of the label offers
                                no help. Nowhee on the bottle does -Passion
                                tell th consmer t!crly what ki   of beverage
                                il is In fact two ty of Passin ext
                                a wine cooler often made wilh "subsrndard
                                                                                  o..;
                                wie. "       The othe is a liqor made with
                               Everclear, a grain alcohol illegal in many Stmes.
                               Alcohol content varies between 5. 0 and
                                6.0 perent The only way to tell the diference
                                between the wine cooler and the liqor is to read

                                the ingredients.





                                                       The beverages also are
                                                       available in two litre bottles--
                                                       lik soda pop--with a free

                                                       promotional 32-ounce plastic
                                                       bottle attached.




Anybod could

     pick up 0
    cardboard
four-pack and
not know that
        it contain
          alcohoL
IN MOsr SfATE, BEER AN               OTI MAT             BEVERAGE LAELS 00 NOT
DISCSE ALHOL CONT
Although the alcohol content of beer and other malt beverages vary by State and
brand , consumers cannot tell by looking at the can or bottle how much alcohol they
are consuming. Beers generally contain 4. 0    to 4. 8   percent alcohol by volume.

Although malt liquor has more alcohol than beer, it is impossible to tell by the.
labeling. Malt liquor may contain up to twce as much alcohol (8. 0 pei'ceqt) as
re,glar beer and frit- flavored malt coolers.


Federal law prohibits beer and other malt liquor beverage companies from disclosing
alcohol content on labels, but it permits States to require disclosure.2 According to
one State liquor control offcial, this law was enacted after prohibition to prevent
beer and malt liquor companies from using alcohol content to attract consumers.
These companies oppose State laws because they would be required to manufacture
different labels for States that require disclosure. Washington State s Liquor Control
Board recently passed a rule requirig alcohol content disclosure , but has
encountered " enormous " resistance from microbreweries and foreign manufacturers.
   s virtually impossible to do anything at the State level, " said a Washington State
liquor control offcial, citing industry opposition.


TH ALHOL CONT OF BEVEGES IS A MYSTRY TO STENT
Less than one of six students identified the beverage containing the most alcohol
when shown the panel of beverages. Students were most likely to select beer
(42. 7 percent of students) and malt liquor (18. 2 percent) as having the most alcohol,
although Cisco (16. 0 percent) contains two to five times more alcohol than either.
Even after being allowed to read the labels on all cans and bottles , less than half
correctly identifed the beverage containing the most alcohol. This is due to (1) the
students ' inabilty to understand the labels and (2) the labels ' lack of clarity.

As discussed in the OIG report "Youth and Alcoho): A National SUIVey-- Drinking
Habits, Access , Attitudes, and Knowledge " (OEI- 09-91- 00652), students do not know
the relative strengths of diferent alcoholic beverages. Almost 80 percent of the
students did not know that a shot of liquor has the same amount of alcohol as a can
of beer. Approximately 55 percent did not      know that a glass of wine and a can of
beer have similar alcohol content. Students were especially unaware of the alcohol
content of wine coolers, even though coolers are favored almost two to one by
students who drik alcohol. Some students stated that they or their classmates
prefer wine coolers over other alcoholic beverages because " they contain less
alcohol."


   227 use
              205(e)
                                                                            '"




Some students had diffculty detennining total alcohol content because some€
beverages do not display it prominently. For an example , see the Bartles & Jaymes€
 example below.
The box on page 13 descdbes students ' two ddnks of choice: wie coolers and
beer.




                    SNASHOT                SUMY: BATL                            JAYMES




   Although stuent recogized     Barlles          layes wine cooler, they often   hl difculty
   deterining how much alcohol these cooler contain One reason was the location and sie              of
   the alcohol content lisg, located on one of the stpe leading towards the BJ crest logo.




    3For a full discuion on student beverage            preference ,   se "Youth and Alcohol: A National
SUlVey--Drinking HabilS   , Acc , Attitudes, and Knowledge," (OEI-0-91-052).
   ,;   .. ...                    - ......-
                                         . ..
                                            ...
                                        - .. . . .. ....- . .. .
                                              .. .   ..   . -  . .     . ..   ....   . .   . .




   Why were. more tharih lfofthestiidentsimable . to identify the . beverage containing
   the most alCohol even after readilg the labelS? . We observed that:

                 niny stent             haddifcuitor cOuld not ftalcohol content listed on alcoholic
                 beerages;




                 beer and lniJtliluir                donotdisdbse alCohol content.               While some stent knew
          .ihatnult liui:(;(Jntain1n                                     tllCohol than beer othelO made no disticton
            between ihe two; lfven ilfterdiscoverUg ihat. Cisco contained 20 percent alcohol,
                             4in -22     ;:1J                         &tizts belieedtk:lbeer 8nd/onnail             liluor
                 contaiidmorealcohOl;




            .iome                       Cdui4iifFOii/l!                       1ith         ft#N1 despite readingiJ closely; and

                              Md; 1idjJfPd&        d;deiiI'1ldhcould                                     not be changed about
                 which beerage coriOined ihe most alcohoL.




MORE TH
CONTAIS
                                  TIA
                                ALHOL
                                                          OF     AI            STEN DO NOT KNOW THT CISCO
Thirt-six percent of the students did not know that Cisco contains     alcohol. Even
after reading the labels , less than half of the students knew that Cisco contains the
most alcohol of any drik in the panel. In fact, it contains at least two-and-a- half
times more alcohol than any of the other beverages.

The warning on new Cisco bottles This is not a wine cooler " confused some
students. " I thought ' Ths is not a wine cooler' meant it didn t have alcohol, " said
one student. In other regions of the country, Cisco bottles did not contain this
warning.

Although Cisco is not available in all areas, students have found ways to obtain it.
For example, students in Philadelphia purchase Cisco from " speakeasies" or

alcoholic beverages. €
 speakies, " ilegal operations that provide students with Cisco as well as other


Students related stories about Cisco which emphasize not only its danger, but also its€
popularity. Among the stories we heard:

                   I know a lot of people that blacked out (after drinking- Cisco).

                   One girl tasted it , said it tasted like Kool-Aid , and drank it fast.
         -..: ,€
               !-
              .-




         It' s     good to buy one for four people. It s strong. Someties you just have                       a
       couple of dollars and need to get drunk.

        Some people pass out. . It tastes good. I know a girl who drank two bottles
       and died. It can reaJly get you messed up.


      SNASHOT SUMY: CISCO " TAK                                                 STENI BY SURPRISE'




Although Cisco has changed it labeling, we found the old bonle (pictured here              in   the midle)€
stil available  several a;eas. Whle many stdents were unfamiliar wih Cisco, other
                     in

descred iJ as the drk of choice for them or their j'nd. "I've seen 10- and ll-year-old
drk     iJ"   said one stuent. "        It make yo wild."
                      BEE VS. WI           COIE: A COMPARON
                           WI    COOLERS     DRI OF CHOICE€
  Wme cooler are the alcoholic drk of choice for stuents. Most stents knew rhat Bartles
  & laymes Wme Coolers contain alcohol because rhey recognized rhe brand and the words " wine
  cooler " although smal
     are prited clearly on

    rhe front of th   bottle.€




                                                                         Stuents knew popular

                                                                         beers, such as€
                                                                         Buweiser, Miller and€
                                                                         Michelob. However€
                                                                         many stuents had no
                                                                         ida how much       alcohol
                                                                         beer contain. As a
                                                                         resl     even after
                                                                         learing rhat Cisco

                                                                         contain 20 percent

                                                                         alcoho    28   percent of€
                                                                         all stuenrs srl believed

                                                                         rhat beer , malt liqor,€
and/or non-alcoholic beer conrain more alcohol rhan Cisco. This problem is exacerbated by

popular myths among students rhat beer is "stronger than wine coolers.

                          BEER      mE MOST POTENT            DRI?€
                   RECOMMENDATIONS€
TH SURGEON         GEN
                  SHOUL WORK WI BEVEGE INUSlY
Sf ATE AN FEERA OFFCI TO IMROVE TH IAEUNG AN
PACKGING OF ALHOUC AN NON-ALHOUC BEVERAGES
A coordinated effort should ensure that (1) total alcohol content of all beverage
including beer and malt liquor- is clearly displayed and understandable -and
(2) alcoholic and non-alcoholic beverages are clearly distinguishable. .€

In order to accomplish this ,   it may be necessary to seek repeal of the Federal law
prohibiting disclosure of alcohol content on beer containers. Other options would be
to convice States to enact legislation requirg content disclosure or to seek€
voluntary industry standards.€

TH SURGEON GENRA SHOUL CONSULT                           WI PUBUC
PRIATE AGENCI TO DEVEP, IMROVE AN PROMOTE
EDUCATIONAL PROGRA WICH WOUL INCRE STENT
AWAR OF ALHOUC BEVEGES AN THm EFCI
Ths recommendation is simar to one that appears in the OIG report entitled
 Youth and Alcohol: A National Surv.ey--Driking Habits , Access, Attitudes , and
Knowledge. " In addition to consulting with other IlS components , the Surgeon
General should work with the U. S. Departments of Education , Transportation, and
Justice, the alcoholic beverage industr, and public interest groups to implement this
recommendation. The educational programs should include (1) teaching students
about the total alcohol content of diferent beverages and (2) elimnating myths
about wine coolers and beer.
                                APPENDIX€
                 MEODOLOGY AN BEVEGE SELECrON
MEODOLOGY
Samplig Methodlogy

The sample for this inspection was drawn in four stages.

At the first stage, a cluster of eight States out of the nation was selected at random
without replacement, with probabilty proportionate to size. That is , for this level
size, dej'ned as the number of schools in each State, was used as the weighting
factor for the selection of the eight States. The universe of schools was limited to
secondary schools Gunior high or senior high) and Kindergarteruhrough 12th grade
schools.

The second stage involved selecting a cluster of counties within each of the eight
States. Two counties were selected from each sampled State for a total of
16 counties. These counties were also selected with probabilty proportionate to size.
However, the size for this stage was determined by the number of students in the
county in grades seven through twelve.

Once counties were selected , a simple random sample of schools within the county
was chosen. Two schools per county were sampled for a total of 32 schools.

The fial stage of sampling was the   selection of students in the schools. A sample of
thrt students   per school was desired. However , 42 were initially selected to allow
for absentees and refusals. The schools  were instructed to alphabetize a list of all
students in grades 7 through 12. Then the total number of students on the list was
divded by 42 and rounded to the nearest whole number (n). Students were then
selected by counting every nth one on the list until the entire list was exhausted. In
many cases , more than the required thirt students were available to participate.
The schools were instructed to randomly subs ample to obtain a final sample of 30.
This final sample size was achieved in all but a few schools. However, in no school.
were less than 27 students intervewed. The total sample for this inspection was
956 students.

Weightg Predue

Since the sample was selected with four different stages and a different set of
probabilties at each stage , weighting of the respondents was standardized through a
five-step process based on sample size and the universe. Although the first two
stages of selection employed probabilty proportionate to size , the measure of size
difered between the two stages. In the first stage the measure of size was number
of schools whie the measure of size for the second stage was number of students;
The thrd and fourth stages involved taking simple random samples of schools and
then students. To provide a uniform unit of selection so that accurate weights could
be determned , the number of students , known at each of the four stages , w!!s used
for purposes of weighting the sample.


Overall, there were 32 distinct weights used to project to the universe-one for- each
school. These weights were applied to every student in the school ant!. were
computed as follows:

(1)	   In weighting from the students to the school , the population in the school was
       divided by the sample in the school. There were 32 different weighting
       factors for this phase.

(2)	   The second weighting factor was determined by dividing the number of
       students in the county by the sum of students in the two schools that were
       chosen. There were 16 different weighting factors used in projecting to the
       county level.

(3)	   In the third stage ,   the weight was computed by dividing the number of
       students in the State by the sum of students in the two counties that were
       chosen. There were 8 weighting factors (one for each State) at this stage.

(4)	   For the final stage , the weight was calculated by taking the number of
       students in the universe and dividing by the number of students in all eight
       States combined , for one weighting factor to project to the universe.

(5)	   The weight at each of these four stages was multiplied together to obtain the
       32 unique weighting factors.

Adjustmts to Weights
It was determined , subsequent to data collection , that the 956 students int rvewed
were disproportionately distnouted when compared to the estimated national
population. Using data provided by the Department of Education , we determined
that the data needed to be reweighted to appropriately reflect this national
population. The table below shows the    distribution of the national population and
sample with respect to race and grade , including the adjusted weights.
                DISTUTON OF POPULTION AN SAMLE€
                           WI REPECf TO GRAE

                                               ADJUSTED
                           UNWEIGHTD           WEIGHTED
       GRAE                 SAMLE              SAMPLE              POPULTION
                             21.40%               12. 90%               13. 03%
                             27. 10%              12. 10%               12. 04%
                             14 711%             23%                   232%
                             12. 70%             21.40%                20. 96%
                             12.40%              17. 10%               17. 20%
                             11. 50%             13.40%                13.42%

               DISTUTON OF POPULTION AN SAMLE
                            WI REPECf        TO RACE

                                               ADJUSTED
                           UNWElGHTD           WEIGHTED
      RACE                  SAMPLE              SAMPLE             POPULTION
      WHIT                   58. 20%             70. 20%               69. 35%
      BLACK                  29. 30%             15.40%                15. 36%
      HISPANIC                8.40%               10. 50%               10. 20%
      INIA
                     20%               0.40%                 1.04%
      ASIA                    3.40%               3.40%                 3.43%
      OTHR                      70%

As can be seen from the above two tables , there is a difference between the
Unweighted sample and population distributions with respect to both race and grade.
Using a cross tabulation of race and grade, compiled for the population and the
sample, the adjusted weights were constructed. These adjustments were made based
on the proportions found in the sample compared with the population. For example
since whites were under sampled and blacks were over sampled , the responses were
weighted more heavily for whites and less for blacks. This adjustment brought the
sample in line with the national population.

The dierences between the adjusted proportions and the unweighted proportions in
the sample are mainly due to the following:

(1)   In general, the sample selected proportionately more 7th and 8th graders than
      are found in the population and€
(2)€   The sample selected proportionately more non-white      students than are present
       in the national population.


Strtued Int Quns
We asked students three questions:

(1)€   Imagie you are at a store and you saw thes bottles on a shelf. Plea tell
       me whether you believe each one doe or doe not conta alcoliol. . It is okay
       if you do not know.

(2)€   Now , just               at the bottes (not touchig), which of thes, if any, do
       you th conta          the most alcohol?


(3)€   Now you      ca   touch and read the labels . Whch of thes, if any, do you
       conta the most alcohol?

BEVEGE SELEcnON
Intervewers purchased the survey beverages in the communities where the intervews
were conducted. Cisco was the only exception. Cisco was used in all intervews
regardless of whether it was available in the community because of the Surgeon
General' s work with the FfC to require Cisco to change its packaging. Interviewers
were instructed to find beverages in 10- to 16-ounce containers. Intervewers
attempted to purchase one of each of the folIowig:

                               Mied drink cooler
                               Wine cooler
                               Light wie cooler
                               Mieral water with juice
                               Non-light beer
                               Non-alcoholic beer
                               Malt liquor

Not all beverages were available in each community. In several communities malt
liquor was available in 40-ounce bottles only.

The intervewers also purchased up to three other alcoholic or non-alcoholic
beverages at their discretion. Intervewers were instructed to look for additional
beverages that closely resembled others in the panel.
                 BEVEGES USED DURG TH INRVIWS€

MID DRI COLE                        NON-ALCOHOLIC BEER

Bacardi Breezer Calypso   Berr      Kingsbury
Bacardi Breezer Key Lie               Doul's
                                    Sharp
WI COLERS                           Texas Light Non- Alcoholic

Bartles & Jaymes Berr                MAT LIQUOR
Bartles & Jaymes Black Cherr
Bartles & Jaymes Light Berr          Colt '
Bartles & Jaymes Red Sangra          Elephant (Danish)
Pink Passion                         Olde English 800
Purple Passion                       Schlitz
Tropical Passion
Seagram s Wild Berres                CQAI
MAT BEVERAGE COOLE                   Qub Martini

White Mountain Cooler                FRUI JUCE
MI          WATE     wr FRUI JUCE    Everfesh Cranberr- Apple

Chapelle Pear€                       SODA POP
La Croix Natural Orange€
Mistic Berr
                         Faygo Redpop
Mistic Tropical Passion.

Sundance Sparkler Concord Twit          Rll/:llD
Sundance Sparkler Cranberr
Sundance Sparkler Raspberr           Cisco Berr
Walleroo .                           Cisco Black Cherr
                                     Cisco Peach
BEER                                 Cisco Regular (Grape)

Budwei6er€
Lowenbrau€
Michelob€
Miler Genuine Draft€
Miler High Life€
Regal Select€
